U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 10, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Mark A. Beckham v. United States of America,
S.CtNo. 19-208

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 12,
2019, and placed on the docket on August 19, 2019. The government's response is due on
September 18, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 18, 2019, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0208
BECKHAM, MARK A.
USA

JUSTIN K. GELFAND
MARGULIS GELFAND, LLC
8000 MARYLAND AVENUE
SUITE 420
ST.LOUIS, MO 63105
314-390-0234
JUST1N@MARGULISGELFAND.COM

